No.

Supreme Court, U s'
FILED

So 'I0M

JAN 2 9 2021
office of thf n pdi^

IN THE

Supreme Court of the United States
Richard E. Boggs,
Petitioner,
v.

UNITED STATES OF AMERICA, INTERNAL
REVENUE SERVICE, PETER RAE (coworkers, et al...
as individuals)
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of
Appeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Richard E. Boggs Pro Se
7001 St. Andrews Rd. #124
Columbia, South Caroline 29212
(803)462-5157

December 26, 2020

received

FEB - h 2021

QUESTIONS PRESENTED
1) Does 26 U.S.C. §7608 (Authority of internal revenue
enforcement officers) establish the relevant requisite
authority of IRS agents and did Special Agent Peter
Rae violate the scope of that authority as alleged?
2) Did the lower court(s), the Internal Revenue Service
(IRS), and the Department of Justice (DOJ) ignore the
operation of 26 U.S.C. § 7608 in order to deprive the
petitioner his Fourth and Fifth Amendment Rights as
provided by the Constitution of the United States of
America?
3) Did the United States District Court of the District of South
Carolina (USDC) improperly remove the petitioner’s case
from South Carolina Magistrate Court?
4) Did the USDC and the United States Court of Appeals for the
Fourth District (CA4) fail to provide the petitioner review as
required by 5 U.S.C. § 706?
... 5) Did the CA4 improperly impose sanctions on the Petitioner?
■A}-

-

6) Did the USDC improperly dismiss the petitioner’s Motion to
Reconsider citing Fed. R. Civ P. 59(e) as the sole basis?

RELATED CASES
• Boggs v. Peter Rae, Civil Action No. 20190R4010500001,
Magistrate’s Court of Richland County, South Carolina.
Removed to the United States District Court of S.C. on
February 22, 2019. See Appendix Al.
• Boggs v. UNITED STATES, Peter Rae, No. 3:19-cv-0551, U.S.
District Court for the District of South Carolina. Judgement
entered January 16, 2020. See Appendix A8 — 18, and A68 73.

• Boggs v. UNITED STATES, Peter Rae, No. 20-1672, U.S.
Court of Appeals for the Fourth District. Judgement entered
November 17, 2020. Motion for rehearing denied and
sanctions imposed November 17, 2020. See Appendix A23 57.

RULE 29.6 DISCLOSURE STATEMENT
Petitioner is not a corporation.

ii

TABLE OF CONTENTS
Questions Presented

1

Related Cases

n

Rule 29.6 Disclosure Statement

n

Table of Contents

m

Appendix Table of Contents

IV

Table of Authorities

vi

Petition for a Writ of Certiorari

1

Opinions Below

1

Jurisdiction

1

Constitutional Amendments, Statutes, and
Regulations involved

1

Introduction

2

Statement of the Case

3

Reasons for Granting the Writ

7

Ml

Remedy Sought

10

Conclusion

12

APPENDIX TABLE OF CONTENTS
Boggs v. Peter Rae, Civil Action No.

20190R4010500001, Magistrate’s Court

of Richland County, South Carolina.

Removed to the United States District

Court of S.C. on February 22, 2019

A1

Boggs v. UNITED STATES, Peter Rae, No.

3:19-cv-0551 USDC Report and

Recommendation (November 19, 2019)

Boggs v. UNITED STATES, Peter Rae, No.

3:19-cv-0551 USDC Order Adopting R&R

and Granting Defendant’s Motion to Dismiss

IV

A8

(January 16, 2020)

A18

Boggs v. UNITED STATES, Peter Rae, No.

3:19-cv-0551 USDC Petitioner’s Motion to

Reconsider filed January 17, 2020 and

DENIAL ORDER filed April 24, 2020.

(January 16, 2020)

A68 & A73

Boggs v. UNITED STATES, Peter Rae, No.

20-1672, USCA4 petition filed July 14, 2020.

A23

Boggs v. UNITED STATES, Peter Rae, No.

20-1672, USCA4 opinion/sanctions filed

November 17, 2020

A39

Boggs v. UNITED STATES, Peter Rae, No.

20-1672, USCA4 Motion for En Blanc

Rehearing filed November 17, 2020 and

DENIAL ORDER filed January 26, 2021

Constitutional Provisions, Statutes, and

A43

Regulations involved (pertinent text)

A58

Declaration of Special Agent Peter Rae

A64

TABLE OF AUTHORITIES
Pase(s)

CASES
U.S. V. Lopez, 115 S.Ct. 1624, 1633,

9

514 U.S. 549 (1995)
Demarest v. Manspeaker, 498 US 184,

8

112 L Ed 2d 608, 111 S Ct. 599, (1991)
Connecticut National Bank v. Germain,
503 US 249, p. 253-254, 117 L.Ed 2nd 91(1992)

8

McNary v Haitian Refugee Center, 498 US 479,
9

112 L Ed 2d 1005, 111 S Ct. 888, (1991)
Reiter v Sonotone Corp., 442 US 330, 337, 60

9

L Ed 2d 931, 99 S Ct. 2326 (1979)
Connally v. General Construction Co., 269 US

9

385, 391 (1926)

Constitutional Provisions
i, 1,12, A58

Fourth Amendment

i, 1, 10, 12, A58

Fifth Amendment

VI

Statutes
5 U.S.C. § 706

passim, A58

26 U.S.C. § 7608

passim, A60

26 U.S.C. § 7803

2, 6, A62

Regulations
6, A62

26 C.F.R. § 1.274-5(k)(6)(ii)

2, 8, A62

27 C.F.R. § 70.33

IRS Publication
IRM 5.17.5.13

8, A63

IRM 9.1.2.2(09-06-2013)(l)

2, A63

MISC.
Declaration of Special Agent Peter Rae

8, A64

USDC Magistrate’s R&R (3:18-cv-03506
7, A67

(EN 36)) page 6, footnote 3

vii

!

4

Fed. R. Civ P. 59(e)

viii

PETITION FOR A WRIT OF CERTIORARI

Petitioner Richard E. Boggs (“Boggs”, “Petitioner”, “Appellant”)
petitions for a writ of certiorari to review a judgment of the United States
Court of Appeals for the Fourth Circuit (“CA4”).

OPINIONS BELOW
The opinion of the court of appeals is unpublished and appears in the
Appendix at page A39.

JURISDICTION
The judgment of the court of appeals was entered on November 17,
2020. (Appendix at page A39). A timely petition for rehearing en blanc was
filed and is pending. (Appendix at page A43). The jurisdiction of this Court
is invoked under 28 U.S.C. §1254(1).

CONSTITUTIONAL AMENDMENTS, STATUTES AND
REGULATIONS INVOLVED
Provisions of the United States Constitution involved include Amendments IV
and V.
Provisions of the U.S. Code, Title 26 involved include 5 U.S.C. § 706, 26 U.S.C.
1

§§ 7608 and 7803.
Provisions of the Code of Federal Regulations, Title 26 involved include 27
C.F.R. § 70.331, and 26 C.F.R. § 1.274-5(k)(6)(ii).

INTRODUCTION
Petitioner Boggs filed a Complaint and Motion for Restraining Order in
South Carolina Richland County Magistrate’s Court on January 18, 2019
against Special Agent Peter Rae (“Rae”) for harassment (SC Code 16-31700(A)) and stalking (SC Code 16-3-1700(B) or (C)) against the Petitioner
and his spouse related to IRC Subtitle A enforcement. Said offenses included
in the Complaint were, and still are, outside the scope of any lawful
enforcement authority possessed by Rae, or any other IRS “Special Agent” per
26 U.S.C. § 7608(b) for “enforcement of laws relating to internal revenue other than
Subtitle E” under the guise of an unlawful “criminal investigation” relating to
“Subtitle A” taxes. The IRS agrees (see IRM 9.1.2.2(09-06-2013)(1).
This case was ultimately removed from S.C. Magistrate Court and
moved to the United States District Court (“USDC”) on February 22, 2019.
There it was routinely and summarily dismissed without any review of

l

The pertinent text is set forth verbatim in the Appendix, beginning at A58.

2

Petitioner’s relevant questions of law, constitutional and/or statutory
provisions brought before the court as required by 5 U.S.C. § 706.
Given the history of animus and hostility the courts have shown toward this
Petitioner in this, and previous cases, he finds no reasonable need for delay in filing
this petition for certiorari since the CA4 has failed to consider his Motion for
Rehearing En Blanc — the unfavorable outcome of which was not only predictable but
expected. Therefore, Petitioner files this petition with this court while he is well
aware of the likely futility of the effort given the courts history of ignoring his
argument(s) and repeatedly failing in their duty to provide review, due process, and
fairness.

STATEMENT OF THE CASE
1. Factual Background and Proceedings in District Court.
On August 17, 2018 thru January 17, 2019 Rae, and an accomplice Pamela
Prado, did commit the unlawful and unauthorized actions complained of in the
Complaint filed with the Richland County Magistrate’s Court. The complaint was
filed with the Magistrate Court on January 18, 2019 and served on Rae at his place
of business on January 29, 2019 (see Appendix Al).
The case was removed from Magistrate Court to USDC on February 22, 2019.
On March 3, 2019 the defendant files a Motion to Dismiss.
On March 5, 2019 Petitioner filed an Opposition to Motion to Move and
Dismiss and a Supplement on April 5, 2019.

3

Magistrate’s Report and Recommendation (“R&R”) filed on November
19,2019 and Petitioner’s Objection to R&R was filed on November 25, 2019
recommending grant the USA’s Motion to Dismiss. The defendant filed a
Response to Plaintiffs Objection on December 9, 2019 contending the United
States as the proper party in order to plead “sovereign immunity” in order to
shield the unlawful actions of its agent (Rae) and escape accountability for
the unauthorized, unlawful actions perpetrated by Rae upon the Petitioner,
his family, and business associates.
Order adopting the R&R filed January 16, 2020.
Petitioner filed a timely Motion to Reconsider with the USDC on January 17,
2020 (See Appendix A68). Motion was subsequently routinely DENIED on April 24,
2020 absent any review as required by 5 U.S.C. § 706 citing “Rule 59(e)” as sole
support for the decision (See Appendix A68 & A73.). Rule 59(e), as the court said in
US v. Fiorelli, 337 F. 3d 282 (3rd Cir. 2003) is a “device to relitigate the original issue
decided by the district court and used to allege error.” The USDC maintains that Rule
59(e) may NOT be “used to relitigate...” citing a conflicting 4th Cir. decision (Robinson
v. Wix Filtration Corp., 599 F. 3d 403, 407 (4th Cir. 2010)) and dismissed the Motion
on that basis alone - apparently there exist a discrepancy among the circuit courts
as to the purpose and function of Rule 59(e). Nevertheless, based on the courts own
reasoning, and facts presented, the Petitioner showed beyond any reasonable doubt
in his Motion to Reconsider that there had been a “clear error of law or a manifest
injustice” in the courts decision in that it failed to provide the review required by law

4

(5 U.S.C. § 706) of relevant provisions (26 U.S.C. § 7608 - not to mention the
violations of S.C. state law presented) which was / is the foundation of the complaint.
The question is - did the court err in dismissing the Motion to Reconsider based on
its conflicting Rule 59(e) interpretation as the sole basis to dismiss the Motion and
deny the Petitioner due process?
On June 12, 2020 Petitioner filed a timely Notice of Appeal with the USDC.

2. Proceedings in Appeals Court.
On July 8, 2020 Petitioner filed a timely appeal to CA4 seeking review of the
lower court’s 1) improper removal of Petitioner’s case from S.C. Magistrate Court to
the USDC, 2) failure to review the issue(s) presented regarding Rae’s authority per
26 U.S.C. § 7608 to engage in any way in the enforcement of laws relating “other that
Subtitle E”.
On August 5, 2020 the Appellee’s entered their reply brief. The brief is a
twenty-seven page poorly veiled attempt to cover the admitted “routinely”2 (Doc 10
at 19) unlawful, unauthorized actions of Rae (et al) perpetrated against the
Petitioner, his family, and business associates under the guise of “tasks associated
with conducting a criminal investigation”. Appellee also filed a simultaneous “Motion
for Sanctions” for “maintaining a frivolous appeal”, which fails to provide any
coherent, meaningful explanation as to the frivolousness of any the Appellant’s
claims. It is merely a disjointed, feeble attempt to explain away the clear,

2 See page 14 Doc 10 of Appellee’s Reply Brief.
5

unambiguous language of the statutory provisions relied upon by this Appellant. The
appellee refers to the very relevant provisions and language of IRC §§ 7608, 7803
and 26 CFR § 1.274-5(k)(6)(ii) as “inapposite”. Apparently, the government
interprets any statute, regulation, or rule that restrains their authority as
“irrelevant”, inapposite”, and “frivolous”. This should deeply concern every citizen
and this court!
The appellee goes on in its reply brief to name the Appellant as a “target” (Doc
10 at 10) and then a “subject” (Doc. 10 at 11) of “an ongoing investigation”— two very
opposite characterizations. However, does confirm that Rae is conducting an
unlawful, unauthorized “investigation” of Subtitle A which the Appellant has held to
be in violation of IRC § 7608.
The appellee also entered a simultaneous Motion for Sanctions in the amount
of $8000 for “maintaining a frivolous appeal” citing IRC §§ 7608, 7803 and 26 CFR
§ 1.274-5(k)(6)(ii) as “inapposite”.
On November 17, 2020 the CA4 rendered its unpublished per curiam opinion
(Appendix A__ ) finding “no reversible error” and yet again failing to provide the
review required by 5 USC § 706 of the statutory provisions presented by the
Appellant. The court, obviously emboldened by this court’s refusal to provide
certiorari of a previous related case filed with this court (Docket 20-529) and failure
to provide supervisory oversight of the lower court, imposed outlandish sanctions
on the Appellant in the amount of $5000 in what can only be interpreted as an effort

6

to suppress the will, and financial ability, of the Appellant to fight these injustices in
“courts of law”.
On December 14, 2020 Appellant filed a timely Motion for En Blanc
Rehearing with the CA4 to review the panel’s decision. This Motion is pending.

REASONS FOR GRANTING THE WRIT
1.

Supervisory action is needed to reign in lower court’s refusal
to provide review of relevant statutes presented which
restrain the actions of federal agents/agencies and provide
protection to persons and property in tax cases.

At the heart of this case is IRC § 7608 entitled “Authority of internal revenue
enforcement officers “. The lower courts blatant refusal to enforce, or even provide a
definitive interpretation of this statute, among others, which restrain the actions of
federal agents/agencies is astounding. As the record shows in this case, the lower
courts neglected their duty under 5 U.S.C. § 706 to review the relevant questions of
law raised by the Petitioner or make any effort to render a definitive interpretation.
The best the lower courts could muster was a single vague, inconclusive mention in a
footnote3 - “...26 U.S.C. § 7608(b)(2)(A) appears to provide for Rae’s authority...”.

3 See USDC Magistrate’s R&R (3:18-cv-03506 (EN 36)) page 6, footnote 3 and
Appendix A67.

7

This alone is grounds for reversal by the CA4.
It is clear and unambiguous that 26 U.S.C. § 7608 restrains any IRS agent or
investigator’s authority to Subtitle E enforcement only unless they are “any criminal
investigator of the Intelligence Division of the Internal Revenue Service...”
and charged with such duty by the Secretary. According to Rae’s own declaration4, he
does not meet the statutory requirements to enforce any Subtitle other than Subtitle
E. IRC § 7608(b) is explicit and provides no leeway to interpret the requirement to
enforce any Subtitle other than Subtitle E as does § 7608(a) and its corresponding
regulation5 27 CFR § 70.33 - a regulation which is lacking for § 7608(b). The IRS
agrees - see IRM 5.17.5.13 (3) & (4).
According to this court, the laws simply mean what the words used in them
say, and nothing more can be read into the law or assumed about it into existence.
The following U.S. Supreme Court cases below clearly reveal these irrefutable facts:
In Demarest u. Manspeaker, 498 US 184, 112 L Ed 2d 608, 111 S Ct. 599,
(1991), the court held: "In deciding a question of statutory construction, we
begin of course with the language of the statute."
In Connecticut National Bank v. Germain, 503 US 249, p. 253-254, 117
L.Ed 2nd 91(1992), the court identifies that:"... courts must

4 See Appendix A64
5 See Appendix A62

8

presume that a legislature says in a statute what it means and means in a
statute what it says there. When the words of a statute are unambiguous, then,
this first canon is also the last: “judicial inquiry is complete.
In McNary v Haitian Refugee Center, 498 US 479, 112 L Ed 2d 1005,
111 S Ct. 888, (1991), the court invokes these basic standards of statutory
construction again: "It is presumable that Congress legislates with knowledge
of our basis rules of statutory construction...".
In Reiter v Sonotone Corp., 442 US 330, 337, 60 L Ed 2d 931, 99 S Ct.
2326 (1979), the court again recognizes its duty to begin with the specific words
of the statute: "As is true in every case involving the construction of a statute,
our starting point must be the language employed by Congress."
"(A) statute which either forbids or requires the doing of an act in terms
so vague that men of common intelligence must necessarily guess at its
meaning and differ as to its application, violates the first essential of due
process of law." - Connally v. General Construction Co., 269 US 385, 391
(1926).
The IRS, DOJ, and lower courts have intentionally either ignored the plain,
unambiguous language of this restraining provision (among others), or perverted, or
attempt to guess at, it’s clear meaning in order to support an unconscionable, biased
predetermined position of authority.

2.

Supervisory action is needed to preserve due process in tax

9

cases.

By ignoring clear statutory language, the judiciary has routinely deprived this
Petitioner fair and impartial review of relevant provisions of law presented that
protect his person and property, as well as properly restrain an ever more aggressive
federal bureaucracy in tax cases.
As a “reviewing court”, 5 USC § 706 compels courts review and render a decision
regarding “questions of law”, and “constitutional and statutory provisions”. This court
declared in U.S. v. Lopez, 115 S. Ct. 1624, 1633, 514 U.S. 549 (1995) it is the duty of
the judiciary “to say what the law is”. To date, the Petitioner has been denied such
review, which is a violation of his right to due process as set forth in Amendment V
of the Constitution of the United States of America.
The lower courts must be reminded again and again by this court of their duty
to review all relevant questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability of the terms of an agency
action as required by 5 U.S.C. § 706 in tax cases. Both the USDC and the CA4 have
deprived the Petitioner of this fundamental right to due process in this case.
REMEDY SOUGHT
The Petitioner prays this court restore the lost semblance of fairness
and reliance upon the law as our guide — not encourage legal gymnastics and
trickery as has been displayed by the lower courts. Petitioner seeks the
following remedy of this court:
10

•

Proper review of IRC § 7608 as required by law (5 USC § 706).

•

Rescind sanctions imposed by the CA4 upon the Petitioner for merely asking
the court(s) to do its duty as required by law.

•

Impose an equal reciprocal amount ($5000) as a sanction against the following
individuals personally and individually for their abuse of discretion and
authority in attempting to suppress the will and financial ability of the
Petitioner to pursue his right to due process in the courts:
o CA4 judges DIAZ, FLOYD, & SHEDD; USDC judges LEWIS &
HODGES; DOJ official’s ZUCKERMAN, CATTERALL, & BRANMAN
These sanctions are appropriate upon these individuals because, as in
the

CA4’s own words,

sanction awards “serve as an effective

deterrent...” and “recompense...” the Petitioner “for at least the direct
costs of the appeal.” The actions of these individuals without question
warrants such a deterrent for their blatant disregard for the rights of
not only this Petitioner, but every litigant that should be unfortunate
enough to have to come before them.
•

Petitioner seeks an order commanding the USDC & the CA4 explain
with specificity which of the Petitioner’s arguments are “manifestly
frivolous” and why so that the Petitioner can avoid making such
arguments in the future. The Petitioner has relied on only the statutory
language of the law for his determinations and conclusions and has
made plain where such reliance is founded — the courts throw the term
11

“frivolous” about with reckless abandon, all the while refusing to cite
their basis for such claim(s) of “frivolous” with specificity.
CONCLUSION
This case exposes a clearly willful, intentional abuse of authority by the
IRS for the sole purposes of exacting Petitioner’s property not owed and
continuously harassing this Petitioner and his family - all in violation of the
Fourth and Fifth Amendment rights of all those affected as provided by the
Constitution of the United States.
The USDC and CA4 courts neglected their duty as “reviewing courts”
per 5 U.S.C. § 706 to make a decision regarding the relevant questions of law,
interpret constitutional and statutory provisions, and determine the meaning or
applicability of the terms of an agency action.
The lower court’s refusal to restrain the unlawful actions of the IRS and show
even a minuscule amount of concern for the rights of the Petitioner, has perpetuated
itself into a Constitutional crisis that requires the supervisory intervention of this
court.
This court’s refusal to provide certiorari of the issues presented by this
Petitioner in a past case (20-529) has emboldened the CA4 to not only continue to
deny the Petitioner review of the statutory provisions presented, but to also impose
outlandish sanctions in what can only be interpreted as an effort to suppress his will
and financial ability to raise challenges and allege wrongdoing in the courts.
Sanctions imposed by the CA4 are improper for the following reasons:

12

1) The court provided no support for imposing sanction. Petitioner has filed,
and acted, in good faith in all his pleadings and has relied on nothing but
statutory language of the laws of the United States of America. To the
contrary, it has been the courts that have acted in bad faith.
2) Fed. R. App. P. Rule 38, which the CA4 cites as foundational for the
imposition of sanction, has not been violated by the Petitioner. The
Petitioner has litigated in good faith and the court’s claim to the contrary
is wholly without merit or substance. Just calling a filing “frivolous” does
not make it so absent any basis for such claim.
3) Sanctions are intended as a means to reimburse a litigant the cost of
litigation. Given the fact the United States has deemed itself to be a
defendant in this case, and the fact the United States government has a
stable of highly paid, full-time, salaried attorneys at its disposal, the United
States nor Rae have incurred ANY costs in this litigation whatsoever and
therefore sanction is not warranted on that basis alone.

1/L^
All Rights Reserved

Richard E. Boggs, Pro Se
7001 St. Andrews Rd. #124
Columbia, S.C. 29212
(803) 462-5157

13

